                                     

                                                                  Issue Date
                                                                         January 6, 2012
                                                                  
                                                                  Audit Report Number
                                                                      2012-BO-1001




TO:         Jennifer Gottlieb, Program Center Coordinator, Hartford Field Office, 1EPH


FROM:
            John A. Dvorak, Regional Inspector General for Audit, Region 1, 1AGA

SUBJECT: The Housing Authority of the City of Hartford did not Properly Administer its
           $2.5 Million Recovery Act Grant Construction Management Contract


                                    HIGHLIGHTS

 What We Audited and Why

              We audited the Housing Authority of the City of Hartford’s (the Authority’s)
              administration of its American Recovery and Reinvestment Act grant that funded
              a construction management contract based on a hotline complaint. Our objective
              was to determine if the Authority solicited, evaluated, and administered the $2.5
              million grant funding and associated contract (the contract) properly and in
              accordance with federal requirements. We also visted a sample of sites to evaluate
              the impact the grant had on housing.


 What We Found


              The Authority properly solicited and evaluated the construction management
              contract and generally improved housing conditions using its Recovery Act grant
              funds. However, it did not properly administer the management contract resulting
              in misuse of $415,692 that should have been used for physical improvements to
                 better housing.1 This occurred in part because of the Authority’s decision to use
                 more than $250,000 in administrative fees that HUD provided to administer this
                 construction manager contact for paying costs of administering its state housing
                 units. The use of fees for other purposes was allowed by HUD rules. However,
                 this use reduced the funding meant for improving housing buildings and
                 structures, which was instead spent on management contract fees.2 The Authority
                 also paid profits that were not required by the contract, and for work that was
                 unnecessary, unreasonable, or unsupported. The misuse of these funds had a real
                 impact on housing improvements when only 38 of 102 boilers were replaced, and
                 porches and a driveway included in the contract were not completed due to
                 insufficient contract funds.

                 The Authority’s warranty inspection also failed to identify numerous and obvious
                 defective items which if uncorrected will shorten the lifespan of some
                 improvements. Further, the Authority did not conduct employee interviews to
                 verify contractor workers were paid the wage rates required by law.

                 During the audit we observed some minor conditions that we addressed in a
                 separate letter to management.

    What We Recommend

                 We are recommending that the Director of HUD’s Hartford Office of Public
                 Housing require the Authority to; 1) repay more than $415,000 in ineligible,
                 unreasonable, and unsupported costs, and 2) establish and implement controls to
                 ensure contract payments are limited to budgeted and approved amounts, change
                 orders are approved prior to initiating work and their price is negotiated,
                 warranty items are identified and corrected in a timely manner, and employee
                 interviews are completed to verify contractor workers are paid the required wages.

                 For each recommendation without a management decision, please respond and
                 provide status reports in accordance with HUD Handbook 2000.06, REV-3.
                 Please furnish us copies of any correspondence or directives issued because of the
                 audit.

    Auditee’s Response

                 The complete text of the auditee’s response, along with our evaluation of that
                 response, can be found in appendix B of this report.




1
  $415,692 = $176,273 ineligible manager fees + $45,246 ineligible profits + $167,133 unnecessary/unreasonable
work + $27,040 ineligible clean-up costs.
2
  $176,273 = $226,273 spent - $50,000 approved.

                                                       2
                            TABLE OF CONTENTS

Background and Objectives                                                     4

Results of Audit
      Finding 1: The Authority Did Not Properly Administer its $2.5 Million   5
      Recovery Act Construction Management Contract

Scope and Methodology                                                         11

Internal Controls                                                             13


Appendixes
   A. Schedule of Questioned Costs and Funds To Be Put to Better Use          15
   B. Auditee Comments                                                        16
          and OIG’s Evaluation of Auditee Comments                            25
   C. Audited Contract Costs                                                  28
   D. Warranty Deficiencies                                                   29




                                             3
                          BACKGROUND AND OBJECTIVES


The Housing Authority of the City of Hartford (Authority) is incorporated under the laws of the
State of Connecticut and operates under a board of commissioners to provide safe and decent
housing to low- and moderate-income families and elderly individuals. The Authority owns and
operates more than 1,100 Federal public housing units under an annual contributions contract
with the U.S. Department of Housing and Urban Development (HUD). It also manages more
than 700 State housing units.

On February 17, 2009, President Obama signed the American Recovery and Reinvestment Act
of 2009 (Recovery Act). This legislation included a $4 billion appropriation of capital funds to
carry out capital and management activities for public housing agencies, as authorized under
Section 9 of the United States Housing Act of 1937. The Recovery Act requires that $3 billion
of these funds be distributed as formula funds and the remaining $1 billion be distributed through
a competitive process. On March 18, 2009, HUD awarded the Authority a formula grant of more
than $5 million.

The Authority allocated more than $2.5 million in Recovery Act formula grant funds for site
improvements at its Scattered Housing Sites II and III.3 The improvements included new
porches and overhangs, sidewalk repair, siding, fences, and boiler replacements.

We received a complaint indicating that the Authority and or its construction manager did not
properly award and administer the contract. Our objective was to determine if the Authority
solicited, evaluated, and administered the contract in accordance with federal requirements.




3
    The Authority’s contract number 1576-10

                                                4
                                 RESULTS OF AUDIT

Finding 1: The Authority Did Not Properly Administer its $2.5 Million
Recovery Act Construction Management Contract
The Authority generally improved housing conditions with the Recovery Act grant funding.
However, it did not properly administer its $2.5 million Recovery Act construction management
contract (the contract). This occurred due to inadequate controls over tracking vendor fees and
profits, spending within the approved budgeted amounts, and processing change orders. As a
result, rather than using the funds to improve housing conditions, more than $415,000 in
Recovery Act funds were misspent on ineligible fees, profits, and unnecessary costs.

In addition the Authority; 1) did not identify defective warranty items due to inadequate
oversight of its architect, which, if uncorrected, will shorten the life-span of improvements, 2)
did not conduct employee interviews due to inadequate Davis Bacon procedures to verify
workers were paid the wage rates required by law, and 3) its bid protest procedures required
improvement to ensure prospective bid protests identify and correct mistakes and unfair
procurement actions.



 The Contract Improved
 Housing Conditions

               The Authority hired a construction manager (manager) to complete $2.5 million
               in exterior site improvements and 135 boiler replacements at twenty-one scattered
               housing unit sites. The manager was to receive $226,000 (only $50,000 was
               authorized by HUD) to solicit subcontractors in accordance with federal
               procurement requirements, award subcontracts, and oversee the work. The
               overall appearance and scope of work completed had a positive effect on the
               quality of housing provided to tenants.




                                                 5
    The Authority Did Not Track
    Fees and Profits

                 Grantees are required to maintain complete and accurate books and records;4
                 however, the Authority’s staff did not know and its records did not show the
                 amount of fees and profits the manager received. We attributed this deficiency to
                 inadequate accounting controls which included the manager's requests for
                 payment5 that identified only $122,000 in construction fees on the “general
                 conditions” line item with the remainder of the fees and profits imbedded in other
                 line items.


    We Identified $415,692 in
    Questioned Costs


                 With no clear accounting for fees and profits we obtained and audited the
                 construction manager's records showing how the $2.5 million was spent. The
                 records showed that the manager received $2,514,147, but only incurred
                 $2,098,455 in allowable contract costs. Thus, we questioned $415,692 in contract
                 costs.6 See Appendix C and the following paragraphs further explanation.


Manager Fees Exceeded the
Approved Amount

                 The Authority exceeded the $50,000 that HUD approved for construction
                 manager services when it paid its manager more than $226,000. This excess
                 occurred primarily because the Authority used the more than $250,000 in
                 administrative fees that HUD provided to administer this federal contract for its
                 state housing units. This nonfederal use was allowed by HUD's asset based
                 accounting rules.7 However, by using the $250,000 for other purposes, sufficient
                 administrative and construction manager grant funds were not available to pay the
                 construction manager; and funds that HUD approved for buildings and structures
                 were used to pay the manager. This had an impact on housing when 97 boilers
                 were not replaced and several porches and a driveway included in the contract
                 were not completed primarily due to insufficient contract funds.8 Furthermore, the
                 more than $176,000 of the $226,000 that exceeded the HUD approved amount
                 was an ineligible grant cost that must be repaid to HUD.9

4
  The Consolidated Annual Contributions Contract Between the Authority and the United States of America
5
   Periodic Requests for Payment, form HUD-51000
6
   $415,692 questioned costs = $2,514,147 paid - $2,098,455 audited costs
7
   Grantees using HUD’s Asset-based accounting rules grantees may use fees for any purpose after processing them
through their central cost center
8
  33 of the 135 boilers were not replaced based on a previous OIG audit that disallowed their replacement because
they had more than 60 percent of their useful life remaining.
9
   $176,273 = $226,273 paid - $50,000 approved

                                                        6
     The Construction Manager
     Received Ineligible Profits

                 Although the contract did not provide for profits, the Authority paid the manager
                 more than $45,000 in profits.10 This occurred due to weak accounting controls.
                 Specifically, the Authority did not require the manager to itemize all fees and
                 profits on requests for payment. These profits were ineligible grant costs because
                 the contract provided for no compensation beyond the $226,000 manager fee.



     Some Change Order Work was
     Unnecessary and Unreasonable

                 The Authority approved more than $72,000 to supervise and manage a
                 preconstruction model.11 The work was unnecessary because replacing siding,
                 sidewalks, porches, and roofs was routine construction that did not require a
                 model nor justify the additional costs. This error occurred in part because the
                 Authority did not require nor approve a change order identifying the management
                 costs prior to starting the work and thus, did not know what the model would cost.
                 Furthermore, although the manager offered to waive preconstruction costs and
                 change order prices were to be negotiated, the Authority did not ask for the
                 waiver nor negotiate the costs.

                 The Authority also paid more than $60,000 for a safety compliance officer to
                 ensure contractors complied with safety standards. 12 We considered this an
                 unnecessary cost because the contractor's are responsible for ensuring they
                 comply with all local state and federal safety requirements.13 We also considered
                 it unreasonable to use limited Recovery Act Funds for these soft costs rather than
                 for actual physical improvements to improve housing conditions.

                 The Authority also approved more than $34,000 in manager costs for work at
                 New Britain Avenue.14 The costs were unreasonable because when combined
                 with construction manager fees and the Authority’s administrative fees the total
                 soft costs for this change order were more than $53,000, or 52 percent of
                 $102,000 cost. 15 We attributed this in part to the Authority’s failure to negotiate
                 change order fees.



10
    $45,246 = $12,912 mockup profit and $32,334
11
    $72,950 Change Orders 41 and 42
12
   $60,180
13
   General Conditions for Construction Contracts Form HUD-5370 Item 2(d)
14
   $34,043 for Change Order 46 = $13,600 for supervision + $9,384 for principal office services + $2,961 + $8,098
change order fee.
15
   52% = $53,588/$102,870

                                                        7
     The Manager Double Counted
     Clean-up Costs

                   The construction manager’s cost accounting provided to us included more than
                   $27,000 in estimated general clean-up costs. 16 However, contractors are
                   responsible and are compensated for clean-up costs under the contract’s general
                   conditions.17 As such, the construction manager's listing of clean-up costs as a
                   separate line item on its cost accounting was in effect a double counting of the
                   costs and therefore; the $27,040 in separate clean-up costs did not increase the
                   amount of audited eligible contract costs and must be repaid to HUD.

     Defective Warranty Items Were
     Not Identified


                   The Authority relied on its Architect to perform a nine month inspection and two
                   subsequent site visits to identify defective work items. However, the Authority
                   did not ensure the inspections were conducted. After we alerted the Authority of
                   several construction defects and warranty items, the Architect completed his first
                   inspection two weeks before the warranty expired. A HUD inspection completed
                   three days later showed that the Architect’s warranty inspection failed to identify
                   58 obvious defective items.

                   The faulty warranty inspection may have occurred due to negligence and or
                   because during construction the Architect certified that the work complied with
                   the contract specifications and thus, may have had a conflict of interest in
                   reporting obvious defects in the work.

                   The amount required to repair the items may not be material; however, the
                   shortened lifespan of the defective items should they remain uncorrected was
                   material. Based on HUD’s inspection the Authority started to take action to
                   correct the deficiencies. See Appendix D for more details.

     The Authority Did Not Conduct
     Employee Interviews

                   The Authority’s contractor reviewed certified payrolls in accordance with HUD’s
                   requirements. However, employee interviews of contract employees were not
                   conducted to verify the payroll’s truthfulness. HUD does not require employee
                   interviews for every contract; however, the Authority had not conducted any
                   interviews for at least four years. If interviews are not conducted workers may

16
     $27,040
17
     General Conditions for Construction Contracts Form HUD-5370 Item 2(g)


                                                        8
                   not receive the required wage rates and contractors may defraud the government
                   for wages not paid. Thus, during the audit the Authority agreed to start
                   conducting interviews.

Bid Protest Procedures
Required Improvement


                   The Authority did not handle the bid protest in accordance with HUD’s
                   requirements when it did not did not include the appeal process in its solicitation,
                   did not offer an appeal in its response to the bid protest, and designate an
                   independent third party to render an impartial opinion.18 This occurred primarily
                   because the Authority did not have adequate formal bid protest procedures. If this
                   deficiency not corrected future protesters may not receive due process and
                   mistakes, irregularities, and unfair procurement actions may not be discovered
                   and corrected.

     Conclusions



                   The Authority did not properly administer the contract due inadequate contract
                   oversight, inadequate accounting and change order procedures and the Authority’s
                   failure to adequately oversee its architect . As a result, $415,000 intended to
                   improve housing conditions instead was misused for unnecessary and
                   unreasonable change orders, excessive management fees, and ineligible
                   construction manager profits. The misuse of these funds had a significant effect
                   on housing conditions when 64 boilers(E.09 see comment 4) and two porches
                   included in the contract were not installed. The Authority also needs to improve
                   its warranty controls to ensure defects are identified and corrected in a timely
                   manner or the lifespan of the improvements will be shortened and the Authority
                   will have to use limited housing funds to correct the deficiencies that were the
                   contractors’ responsibility.

     Recommendations



                   We recommend that the Director of HUD’s Hartford Field Office of Public
                   Housing require the Authority to

                   1A. Repay HUD $176,273 for ineligible construction manager fees paid to the
                      construction manager.


18
     HUD’s bid protest procedures are stipulated in HUD HB 7460.8 Chapter 10, Section 10.4. and 24 CFR 85.36(b)12


                                                         9
1B. Repay HUD $45,246 for ineligible profits paid to the construction manager.

1C. Improve accounting procedures for construction management contracts and
   ensure all fees and profits are clearly identified, classified, and paid in
   accordance with the contract.

1D. Improve budget and contract review procedures to ensure contracts and
   payments are limited to budgeted and approved amounts.

1E. Repay HUD $133,090 ($72,910 for unnecessary model costs and $60,180 for
    unnecessary safety observer costs).

1F. Repay HUD the entire $34,043 or the provide support for a portion thereof,
    for unreasonable management fees and soft costs for improvements at New
    Britain Avenue, Change Order 43.

1G. Establish and implement formal change order procedures to include ensuring
   change orders are initiated for all changes in the scope of work, approved by
   the contracting officer prior to initiating work, and the cost is negotiated.

1H. Repay HUD $27,040 for ineligible general clean-up costs.

1I. Establish and implement formal procedures to ensure warranty inspections
    identify all material detects and corrective actions are taken in a timely
    manner.

1J. Establish and implement formal procedures for contractor employee
    interviews.

1K. Establish and implement formal bid protest procedures in accordance with
   federal requirements.




                                10
                          SCOPE AND METHODOLOGY


We conducted our audit between June 2011 and November 2011. We completed our fieldwork at
the Authority’s office located at 180 Overlook Terrace, Hartford, CT, and its contracted
construction manager’s office. Our audit covered the period January 2010 through May 31,
2011, and was extended when necessary to meet our audit objectives.

To accomplish our audit objectives we,

 Limited our tests to the Authority’s contact number 1576-10.

 Reviewed applicable Recovery Act and Capital Fund regulations, notices, and guidance, including

  The American Recovery and Reinvestment Act of 2009;
  24 CFR 85.36 Administrative Requirements For Grants And Cooperative Agreements;
  HUD Handbook 7460.8 rev-2 Procurement Handbook for Public Housing Agencies;
  The Authority’s ARRA Procurement Policy.

 Interviewed key staff members at the Authority, the Construction Manager, and selected
  subcontractors.

 Evaluated and tested the procurement controls to evaluate their implementation and effectiveness.

 Evaluated the scope of work to determine what contract work wasn't completed, why it wasn't
  completed, and its monetary value.

 Reviewed all contract change orders to determine if they were eligible, necessary, reasonable,
  supported, and approved by the contracting officer prior to initiating work.

 Reviewed the terms of the contract and payments to the construction manager to determine the
  amount of fees and profits the manager was entitled to receive and was paid.

 Requested that the construction manager provide a cost accounting (accounting) for all contract
  costs and traced as sample of the costs to copies of bank checks, contracts, and invoices to verify
  the accuracy of the accounting.

 To test subcontractor costs we selected a nonrepresentative sample of checks from the accounting.
  We did not use a 100% or representative selection due to our ability to select a relatively small
  number of high dollar items, greater than $10,000, to test a large percentage of the total
  payments. Our sample of 36 payments totaling $1,686,901 was drawn from a universe of
  $1,983,345; and thus, represented more than 85 percent of the total payments to subcontractors
  listed on the cost accounting. We believe this provided a reasonable basis to determine the
  accuracy and validity of allowable subcontractor costs.
  


                                                  11
 We reviewed the Authority’s procurement records to determine if the construction manager was
  properly solicited, evaluated, and selected.

 Selected and visited a nonrepresentative sample of work sites to verify work was completed and
  its general quality and condition. We used a non-representative selection rather than a 100% or
  representative selection because we wanted to spend no more than two audit days to inspect sites.
  Our sample of 6 of the Authority’s property sites was drawn from a universe of 21 sites.

 Reviewed the warranty inspection report that HUD PIH Hartford, CT’s Engineer completed after
   our site visits and notification that the sites had several material deficiencies. We relied on
   HUD’s report which included written and photographic documentation of warranty deficiencies,
   to determine if the procedures and controls the Authority established and took were effective to
   identify and correct warranty items.
   
 Reviewed construction manager fees to determine if the Authority exceeded its authorized limit.
   
We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                                12
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


               We determined that the following internal controls were relevant to our audit
               objectives:

                  Controls over experience and training
                  Controls over formal written policies and procedures
                  Controls over change order processing and accounting for fees and profits
                  Controls over accepting bids, confidentiality of bids, and bid protests
                  Controls over evaluating proposals and negotiations
                  Controls over conflicts of interest and kick-backs
                  Controls over warranty work
                  Controls over wage rates

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiencies


               Based on our review, we believe that the following items are significant deficiencies:

                                                 13
              The Authority did not track and account for fees and profits.

              The Authority’s contract procedures did not ensure that Construction Manager
               Fees were within the budgeted and HUD approved amount.

              Change orders were not always completed for changes in work, not approved
               prior to starting work, and prices were not negotiated.

              The Authority did not conduct employee interviews to verify the truthfulness
               of certified payrolls and compliance with required wage rates.

              The Authority lacked procedures to ensure the quality of warranty inspections
               and to ensure they were conducted in accordance with the contract and HUD’s
               requirements.

              The Authority didn't handle bid protests in accordance with HUD's
               requirements.

           See finding 1 for details.


Separate Communication of
Minor Deficiencies


           Minor internal control and compliance issues were reported to the auditee in a
           separate memorandum.




                                            14
                                     APPENDIXES

Appendix A

                SCHEDULE OF QUESTIONED COSTS
               AND FUNDS TO BE PUT TO BETTER USE

        Recommendation             Ineligible 1/    Unreasonable or
            number                                   unnecessary 2/
                1A                    $176,273
                1B                     $45,246
                1E                                        $133,090
                1F                                         $34,043
                1H                      $27,040



     1/      Ineligible costs are costs charged to a HUD-financed or HUD-insured program or
      activity that the auditor believes are not allowable by law; contract; or Federal, State, or
      local policies or regulations.


     2/      Unreasonable/unnecessary costs are those costs not generally recognized as
      ordinary, prudent, relevant, and/or necessary within established practices. Unreasonable
      costs exceed the costs that would be incurred by a prudent person in conducting a
      competitive business.




                                               15
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         16
Ref to OIG Evaluation   Auditee Comments




Comment 1




                         17
Ref to OIG Evaluation   Auditee Comments




Comment 2




Comment 3




Comment 4




                         18
Ref to OIG Evaluation   Auditee Comments




Comment 5




                         19
Ref to OIG Evaluation   Auditee Comments




Comment 6




                         20
Ref to OIG Evaluation   Auditee Comments




Comment 7




Comment 8




                         21
Ref to OIG Evaluation   Auditee Comments




Comment 9




                         22
Ref to OIG Evaluation   Auditee Comments




Comment 10




Comment 11




                         23
Ref to OIG Evaluation   Auditee Comments




Comment 12




                         24
                                 OIG Evaluation of Auditee Comments

Comment 1           The findings and recommendations identified in this report are based on the audit
                    evidence found during the audit and are therefore reportable. The fixed price
                    contract indicates the construction manager was to act a consultant during the
                    preconstruction phase: however, the contract had no language or requirements
                    that stated the construction manager was to act as "the equivalent of a general
                    contractor" during construction. Under the unambiguous terms of the contract,
                    the contractor was to be paid the contract sum of $2,514,147 (subject to change
                    orders) which included within its total a construction fee of nine percent. The
                    contractor was not entitled to profit in addition to the approved fee under the
                    Recovery Act.

                    The contract was not a Guaranteed Maximum Price contract. A Guaranteed
                    Maximum Price contract would have established a maximum price for a specific
                    scope of work. However, the Authority did not execute an American Institute of
                    Architects contract to establish the guaranteed maximum price. The contract’s
                    scope was continually revised by additions and deletions to the work throughout
                    the contract period although not all deletions were executed through change
                    orders. Therefore, comparing this contract to a Guaranteed Maximum Price
                    contract was not factually correct nor a valid basis for explaining the legal
                    requirements for this contract.

Comment 2           During the audit and in the Authority’s response nothing was provided to
                    evidence it tracked fees and profits. We attribute the failure to account for costs
                    to a lack of adequate accounting controls and oversight of the contract, which was
                    the prime responsibility of the Authority.

Comment 3           The Authority was incorrect in its claim that only allowable costs were incurred
                    and in its understanding of federal contracting requirements for use of Recovery
                    Act funds. Also, we disagree that the Authority use of funds was appropriate and
                    had the Authority used these funds for dwellings and structures that HUD
                    approved, more new porches and boilers would have been installed and more
                    housing improvements made. We therefore the Authority needs to repay HUD
                    $415,692 for failing to use the funds as approved.

Comment 4           The Authority was in violation of the requirements of the Recovery Act and HUD
                    requirements when it agreed to pay more than HUD approved for management
                    fees. HUD clearly approved only $50,000 of the grant for "construction manager
                    fees" on HUD form 50075.1.19 However, the Authority could have used other
                    funds such as a portion of the $250,000 in administrative funds HUD provided 20
                    to pay its construction manager fees as provided in the contract; however, these
                    funds were instead used for its state housing units. Therefore, costs paid totaling
                    $176,273 exceeded the $50,000 allowed under the grant require repayment.

19
     budget line item 1410
20
     budget line item 1430

                                                    25
            We acknowledge that 33 boilers were not replaced due to a prior OIG audit that
            recommended not replacing boilers when they had 60 percent or more of their
            useful life remaining. Thus, to clarify the report we added the word “primarily”
            and added footnote 8 to disclose why 33 of the boilers were not replaced. The
            Authority is also correct that the OIG recommended that the specified boilers
            efficiency be increased from 80 to 85 percent in accordance with Recovery Act
            and other federal requirements. However, the Authority provided no denials or
            support for the additional costs and we considered the cost immaterial and thus,
            we did not adjust the report.

Comment 5   See Comment 1

            Furthermore, during the audit and in the Authority’s response, it provided no
            credible evidence or contract language showing that the contract required or
            provided for profits above and beyond the negotiated $226,273 management fee.
            Therefore, we maintain that profits paid to the contractor were not provided in the
            contract, and thus, must repay HUD.

            Also based on our interviews with the construction manager, the Authority did not
            negotiate costs for the change orders we questioned.

Comment 6   We do not agree change order issues were procedural in nature. The Authority is
            correct that the change orders for the unnecessary mock-up, a safety observer, and
            administrative charges for completing work New Britain Avenue did not raise the
            total cost of the contract. However, their costs were paid from contract funds and
            reduced the amount of contract funds available to complete the required scope of
            work included in the contract. This had a real effect when 64 boilers and porches
            included it the contract were not replaced or completed. We coordinated our
            evaluation of these change order costs with HUD and it was agreed these change
            orders were not necessary or valid33 contract costs.

Comment 7   The clean-up costs were included in the management fee and thus, charging them
            as separate line item in on the construction manager's cost accounting did not
            increase the amount of audited eligible contract costs. Thus, the paragraph was
            restated to reflect this. However, the other additional costs included in the
            construction manager’s accounting remain ineligible and require repayment.

Comment 8   The grantees relied on contractors to provide professional services and expert
            advice; and the Authority's Architect contract if properly administered would
            have satisfied HUD's warranty requirements. However, Section 5 of the
            Authority's Annual Contributions Contract requires that grantees ensure its
            contractors and subcontractors comply with HUD's requirements. Thus, simply
            contracting for the work does not release the Authority from its responsibility to
            ensure compliance. The Authority did not ensure its contractor completed the



                                             26
                  required inspections21 nor ensured the quality of the inspections as evidenced by
                  HUD's subsequent inspection and the photographs in the report. OIG is also
                  concerned that the Authority's proposed corrective actions appears to rely on yet
                  another contractor to verify compliance. Thus, we suggest that HUD ensure that
                  the Authority's corrective actions include monitoring by the Authority itself to
                  ensure its warranty contractors comply with HUD's requirements.

Comment 9         The Authority generally accepted that employee interviews should be conducted
                  and agreed to make procedural changes. However, we are concerned its new
                  procures do not appear to include the Authority overseeing its contractor to ensure
                  employee interviews are routinely conducted or to monitor the effects thereof.22
                  Thus, we strongly encourage HUD to ensure that the Authority actively overseas
                  its contractor and ensures that interviews are conducted to verify the accuracy and
                  truthfulness of certified payrolls before recommending closing this
                  recommendation.

Comment 10 The Authority accepted the finding and agreed to make procedural changes.

Comment 11 The Authority rejected implementing 8 of the report's 10 recommendations. The
           Authority’s response and comments to the findings and recommendations clearly
           indicates that the Authority misunderstood its responsibilities in the
           administration of the Recovery Act funds. Based on our audit results and
           evaluation of the Authority's comments above we strongly encourage HUD to
           ensure that the Authority fully implements each recommendation, and ensures the
           Authority improves its internal controls, and becomes a better manager of federal
           funds

Comment 12 The conditions identified in this report were not merely procedural in nature. As
           stated above, the Authority’s response and comments to the findings and
           recommendations clearly indicates that the Authority misunderstood its
           responsibilities in the administration of the Recovery Act funds. Also, the
           Authority's use of $415,692 in Recovery Act grant funds for ineligible,
           unnecessary, and unreasonable costs had a real negative effect on housing
           improvements when only 38 of 102 boilers were replaced, and porches and a
           driveway were not completed that were included in the contract. Therefore, the
           Authority needs to return the mismanaged and misused funds to HUD and
           improve its management controls as indicated in the recommendations.




21
   Indeed, the contractor did not complete the required 9 month and only completed 1 of the 2 additional inspections,
at the end of the warranty period, after we identified no inspections were completed.
22
   as required by Section 5 of the Authority's Annual Contributions Contract

                                                         27
Appendix C

                                  AUDITED CONTRACT COSTS


                                              Audited Contract Costs
                                     Per Construction Manager's Cost Certification
Construction Manager Cost Certification Costs -
 Div. / Trade Items                                                        $1,970,700
 Reimbursable Costs                                                           77,923
 Building Permit                                                              32,670
 Insurance                                                                    31,066
Costs per Cost Certification (not incld. 9% CM Fee, Profit & Overhead) -                $2,112,359
Plus eligible OH&P and charges for Construction Manager employee
services earned on change orders                                                           36,228
Plus The HUD Approved Construction Manager fee                                             50,000
Less ineleigble general clean-up on Cost Cert                                             (27,040)
Less ineligible profit for Mock-up on Cost Cert                                           (12,912)
Less Unnecessary Safety Observer costs on Cost Cert
(included in Cost Cert Reimbursable Cost total)                                           (60,180)
Audited Contract Costs                                                                               $2,098,455
Amount Paid to Construction Manager                                                                  2,514,147
Questioned Costs                                                                                     $415,692


                                          Itemized Questioned Costs
Ineligible Costs
 Profit for mock-up                                                          $12,912
 Additional Ineligible Profits paid to Construction Manager                  $32,334
 Construction Mgr. fees in excess of the $50 K HUD approved
($226,273 - $50,000)                                                        $176,273
General clean-up                                                             $27,040
                                                                                         $248,559


Unnecessary Costs :
 Safety observer                                                             $60,180
 Program Manager and office admin. Services
 for Harrison Ave. mock-up (CO # 41)                                         $50,510
 Full time superintendent for the Harrison Ave
 mock-up (CO # 42)                                                           $22,400
                                                                                         $133,090
Unreasonable Costs:
CM fees for work at New Britain Ave (CO # 46)                                $34,043
                                                                                          $34,043
Total Questioned Costs                                                                               $415,692




                                                           28
Appendix D

                            WARRANTY DEFICIENCIES

                                             Porch 
                     Sidewalks                                     Porches             Plantings 
 Warranty                                  overhangs 
 conditions                                                                Storm                     Totals 
   report                    Handrail                                                   Alive and 
               Caulking                    Rain spouts     Split/Cracks     drain 
                              issues                                                    thriving? 
                                                                           issues   
HUD              15           21              21               0              1            6          64 
Architect         0            4               0               1              1            0          6 
                     Number of deficiencies the architect failed to identify                          58 

A majority of porches had deficient caulking/sealant at the connections of the slabs to the walls of
the houses. As a result, the life span of these improvements will be shortened due to cracking
from freeze thaw forces and possible settlement could occur.




Some handrails were already rusting and all were susceptible to rusting at the base because of
improper installation. Some rails were unsecured to their base, one loose rail was leaning, and
one loose railing protruded into the driveway.




                                                    29
Rain spouts were not connected to drainage systems. Instead of entering the drain and flowing
away from the building, water from the rain spouts emptied to the foundations exposing them to
water penetration and increasing the chance of settlement.




Several landscaping locations contained dead plants that should be dug up and replaced. Not
only do plants play an aesthetic role; they also help prevent erosion and reduce run-off.




                                     `

Drains at one location were improperly designed and clogged with debris due in part to screens
installed during construction that were not removed. One resident told us that when it rained,
water came over the porch and under the door. Gravel was also washing out from under the
porch eroding its base due to water coming down the sloped front of the building that should
have been directed away from the porches.




                                              30
